Department of Homeland Security
   Ofﬁce of Inspector General

             Funding Plan for the United States 

                   Coast Guard Museum 





OIG-10-105                                          August 2010
                                                             Office ofInspector General

                                                             u.s. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                   August 3, 2010

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
establis,hed by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the actions needed to ensure a continued realistic capital budget and
operating forecast for the Coast Guard Museum. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation ofthis report.

                                   ~~
                                   Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Review ................................................................................................................3 


     Funding Plan Assumptions ............................................................................................3 

     Capital Cost Estimate.....................................................................................................4 

     Operating Forecast .........................................................................................................6 

     Recommendations..........................................................................................................8 

     Management Comments and OIG Analysis ..................................................................8 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................10 

     Appendix B:           Management Comments to the Draft Report .......................................12 

     Appendix C:           Major Contributors to This Report ......................................................15 

     Appendix D:           Report Distribution ..............................................................................16 


Abbreviations
     DHS                   Department of Homeland Security 

     OIG                   Office of Inspector General 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary

                As required by the Coast Guard and Maritime Transportation Act
                of 2004 (Public Law 108-293), we reviewed the Coast Guard’s
                Funding Plan for Coast Guard Museum. The objective of our
                review was to determine whether the cost estimates associated with
                the plan to construct and operate the Coast Guard Museum are
                reasonable and realistic. We obtained an independent cost estimate
                and consulted the Smithsonian Institution as part of our assessment
                of the funding plan’s estimated $65.2 million capital budget. We
                also compared the funding plan’s estimated $4.0 million annual
                operating budget with actual funding and costs reported by other
                museums throughout the Nation.

                The capital and operating costs presented in the funding plan
                appear both reasonable and realistic. However, due to the expected
                2-year delay in the project initiation, the Coast Guard needs to
                increase its funding plan budget by approximately $2.6 million to
                ensure continued realistic capital cost budgeting. Our conclusion
                that the costs presented in the funding plan are reasonable and
                realistic relies on several assumptions regarding land, parking, and
                fundraising levels, which, if changed, may invalidate our overall
                opinion.

                We are making two recommendations to the Coast Guard, which
                are designed to ensure a continued realistic capital budget and
                operating forecast for the Coast Guard Museum.




                Funding Plan for the United States Coast Guard Museum 


                                       Page 1 

Background
             Enacted on August 9, 2004, the Coast Guard and Maritime
             Transportation Act of 2004 (Public Law 108-293), authorized the
             establishment of a Coast Guard Museum in New London,
             Connecticut. This act requires that, prior to the establishment of
             the museum, the Coast Guard submit a funding plan for the
             construction, operation, and maintenance of the museum. Further,
             this act specifies that the funding plan include the following:

             (1) The estimated planning, engineering, design, construction,
                 operation, and maintenance costs for the museum

             (2) The extent to which appropriated, nonappropriated, and
                 nonfederal funds will be used for such purposes, including the
                 extent to which there is any shortfall in funding for
                 engineering, design, or construction

             (3) A certification by the Department of Homeland Security,
                 Inspector General that the estimates provided pursuant to
                 paragraphs (1) and (2) are reasonable and realistic

             We reviewed the Coast Guard’s Funding Plan for Coast Guard
             Museum (Funding Plan). The information and costs presented in
             the Funding Plan are based on the Strategic Master Plan: The
             National Coast Guard Museum, New London, Connecticut,
             September 30, 2008 (Master Plan). A museum planning and
             consulting firm, under contract to the Coast Guard, prepared the
             Master Plan. The Master Plan quantified the projected
             construction and operating costs for the museum. The Funding
             Plan incorporated the capital budget, project schedule, operating
             forecast, and staffing plan from the Master Plan.

             The Funding Plan details a proposed 61,838-square-foot museum.
             Under the plan, the National Coast Guard Museum Association, a
             separate charitable organization, will raise the funds for the
             planning, engineering, design, and construction of the museum.
             Once constructed, the National Coast Guard Museum Association
             will donate the museum to the Coast Guard, assist the Coast Guard
             in jointly operating the museum, and provide ongoing private and
             corporate fundraising support. The Coast Guard will fund and
             manage the museum’s general administration and maintenance.

             The planning and development of the museum will follow a 5-year
             sequence of site planning and preparation, master planning,

             Funding Plan for the United States Coast Guard Museum 


                                    Page 2 

                           program design, architectural drawings, and construction.
                           Fundraising will occur throughout the process. The museum is
                           expected to reach a stable operating year1 4 years after opening.
                           The museum was originally planned to open in 2013, but the Coast
                           Guard has stated that fundraising difficulties associated with the
                           current economic climate will delay the project by at least 2 years,
                           or until 2015.

Results of Review
                           The capital and operating costs presented in the Funding Plan
                           appear reasonable and realistic. However, due to the expected 2-
                           year delay in the project, the Coast Guard needs to increase its
                           Funding Plan budget by approximately $2.6 million to ensure
                           continued realistic capital cost budgeting. Our conclusion that the
                           capital and operating costs presented in the Funding Plan are
                           reasonable and realistic relies on several assumptions regarding
                           land, parking, and fundraising levels, which, if changed, may
                           invalidate our overall opinion.

         Funding Plan Assumptions
                           The Funding Plan assumes the following:

                           (1) The city of New London or its agent will donate a fully
                               prepared and remediated site for the museum.

                           (2) The city of New London or its agent will donate or otherwise
                               provide parking amenities for the museum.

                           (3) The National Coast Guard Museum Association will contribute
                               the full $65.2 million in funding for the total cost of the
                               museum project.

                           Should these assumptions or economic conditions change
                           materially, the estimated cost of the museum may increase
                           significantly. Further, if funds cannot be raised to meet such
                           increases, the scale or quality of the museum may need to be
                           adjusted to fit within any reduced budget.




1
 A stable operating year is defined as one in which attendance trends are normalized after the initial surge
associated with the opening of a new facility.

                          Funding Plan for the United States Coast Guard Museum 


                                                   Page 3 

        Capital Cost Estimate
                          The Funding Plan provides for total capital costs of approximately
                          $55.5 million2 for the museum’s planning, design, engineering, and
                          construction, including equipment and exhibits. Additional
                          nonconstruction costs of $9.7 million3 will bring the total project
                          cost to approximately $65.2 million. Of the $65.2 million total
                          project cost, we did not analyze $4.4 million related to preopening
                          operating support and fundraising, as these costs were not included
                          in the scope of our review.

                          We contracted with a professional engineering firm to prepare an
                          independent cost estimate for the design, engineering, and
                          construction of the museum to serve as our basis for determining
                          whether the Funding Plan is both reasonable and realistic. Further,
                          the Smithsonian Institution, Cost Engineering Division, reviewed
                          both the independent cost estimate prepared by our contractor and
                          the capital costs presented in the Funding Plan and made
                          suggestions to ensure realistic and reasonable estimates.

                          Our analysis of the independent cost estimate and the Funding Plan
                          revealed minimal differences totaling approximately $202,000 in
                          overall capital costs, as illustrated in Table 1:

                 Table 1: Comparison of Independent Estimate to Funding Plan

                 Capital Budget Line           Funding        Independent      Difference Between
                                               Plan           Cost Estimate    Funding Plan and
                                                                               Independent Cost
                                                                               Estimate
                 Building Construction         $30,782,130       $32,170,452              ($1,388,322)
                 Architectural, Engineering,    $8,525,122        $8,086,842                 $438,280
                 & Associated Costs
                 Museum Equipment               $1,513,000        $1,524,830                ($11,830)
                 Program Costs (Exhibit &      $14,640,065       $13,880,630                $759,435
                 Gallery-related Costs)
                 Total                         $55,460,317       $55,662,754               ($202,437)


                          The Smithsonian Institution, Cost Engineering Division, noted that
                          the approach and methodology used in developing the independent
                          cost estimate were sound, consistent with industry standards, and
                          in good practice. According to the Smithsonian Institution,
                          differences between the Funding Plan and the independent estimate
                          are minor and do not seriously impact probable construction costs

2
 Unless otherwise stated, all dollar figures are 2008 dollar values. 

3
 Nonconstruction costs include preopening support and fundraising; initial cash and endowment funds; and 

cost growth for equipment, exhibits, and other items not related to building construction. 


                          Funding Plan for the United States Coast Guard Museum 


                                                   Page 4 

                             for the museum. Further, the Smithsonian Institution noted that the
                             construction costs in the Funding Plan appeared both reasonable
                             and realistic.

                             However, the Smithsonian Institution noted that the current
                             construction estimate includes escalation to June 2012, and that,
                             based on current projections, any project delays beyond that date
                             would add approximately 3.5% in additional costs per year. The
                             Smithsonian Institution recommended that the Coast Guard update
                             the capital budgets to reflect the cost of any delays.

                             Our review of the Funding Plan’s construction escalation4
                             allowance showed that the Coast Guard did not provide for cost
                             growth for general conditions, the general contractor’s payment
                             and performance bond, and the general contractor’s fee in its
                             construction escalation allowance.

                             We recalculated the Funding Plan’s construction escalation
                             allowance to provide for cost growth for the 2-year project delay
                             and for general conditions, the general contractor’s payment and
                             performance bond, and the general contractor’s fee. We
                             determined that these factors would add approximately
                             $2.6 million to the Funding Plan’s total project cost.

                             Although the estimated capital costs appear both reasonable and
                             realistic, the Funding Plan does not include approximately $2.6
                             million in expected construction cost growth. Our conclusion
                             relies on the assumption that a fully prepared and remediated site,
                             as well as parking amenities, will be donated for the museum.
                             Nothing came to our attention during the course of our audit to
                             suggest that these assumptions are invalid.




4
    Escalation is defined as the percentage or dollar amount associated with inflation.

                             Funding Plan for the United States Coast Guard Museum 


                                                      Page 5 

        Operating Forecast
                          The Funding Plan estimates that operating and maintaining the
                          museum will cost approximately $4.0 million annually.5 We
                          analyzed these estimated costs against other museums’ reported
                          operating costs and determined that the Funding Plan’s projected
                          operating expenses are both reasonable and realistic. For example:

                          • The museum’s personnel costs represent 56.3% of the total
                          operating expenses. Similarly, museums in the same geographic
                          region report 55.9%.

                          • The museum’s building operation and maintenance costs
                          represent 12.0% of the total operating expenses. Similarly,
                          museums in the same geographic region report 12.6%.

                          • The museum’s collection care costs represent 7.2% of the total
                          operating expenses. Similarly, museums throughout the Nation
                          report a median of 8.0%.

                          The Coast Guard will fund approximately $2.72 million (64%) of
                          the $4.0 million from annual appropriations. This $2.72 million
                          includes funding for 22.4 full-time equivalent employees and will
                          fund and manage the museum’s general administration and finance
                          facility and exhibit maintenance, collection care and maintenance,
                          information systems, and nonrevenue-generating visitor services.

                          Revenues from a theater, simulator, food service, gift shop,
                          function rentals, and memberships are projected to contribute
                          approximately $863,000 (20%) annually toward operating
                          expenses. The remaining annual operating shortfall of
                          approximately $420,000 will be addressed as follows:

                          • An initial endowment of $3 million with an estimated 4%
                          annual return will contribute $120,000 annually.

                          • An additional $575,000 is to be raised from a variety of
                          sources, including individual donations, corporate sponsorships,
                          and special event fundraising.



5
 Unless otherwise stated, operating revenues and expense amounts are for the stable operating year
presented as year 2016 in the Funding Plan.

                         Funding Plan for the United States Coast Guard Museum 


                                                 Page 6 

          These funding ratios are consistent with those of comparable
          museums. According to our analysis of operating data published
          by the American Association of Museums, the Funding Plan’s
          projected ratios closely mirror those of municipal or county-
          governed museums. Museums operating under municipal or
          county governance structures are more likely to have a federal,
          state, or other government agency parent. Chart 1 compares
          funding sources for the museum against those reported by
          municipal or county-governed museums:

     Chart 1. Percentage of Operating Revenue by Funding Source

       70%                                         68%
                 64%
       60%

       50%                                                                            Government
       40%                                                                            Earned

       30%                                                                            Private
                        20%
                                                                19%                   Investment
       20%                    13%                         12%
       10%                           3%
                                                                          1%
        0%
                       Coast Guard                     Municipal/County

Source: Developed from data in the American Association of Museums’ 2009 Museum Financial Information
and the Funding Plan.

          As reflected in Chart 1, the museum is projected to generate a
          higher percentage of its operating costs than other museums likely
          to have a government agency parent. This is a reasonable
          projection given the museum’s planned revenue-generating theater,
          food service, and gift shop components.

          Although we determined that the estimated operating costs appear
          both reasonable and realistic, our conclusion relies on the
          presumption that the National Coast Guard Museum Association
          will raise sufficient funds to construct a facility capable of
          achieving the museum’s operational objectives. If the National
          Coast Guard Museum Association fails to raise sufficient funds,
          the museum may not achieve its budgeted revenues and federal
          funding requirements may increase.




         Funding Plan for the United States Coast Guard Museum 


                                     Page 7 

Recommendations
     We recommend that the Commandant of the Coast Guard:

     Recommendation #1: Review escalation and project assumptions
     related to land, parking, and fundraising for validity and update the
     Funding Plan to reflect changes to budgeted costs and federal
     funding requirements at each project milestone.

     Recommendation #2: Adjust the Funding Plan’s construction
     escalation allowance to recognize increases in total project cost
     associated with the anticipated 2-year project delay. The Coast
     Guard should also include cost growth for general conditions, the
     general contractor’s payment and performance bond, and the
     general contractor’s fee in making this adjustment.

Management Comments and OIG Analysis
     The Coast Guard acknowledged that the start date is unknown for
     the project and there are many variables affecting cost—some of
     which are out of the Coast Guard’s control—which complicate the
     estimation of final capital costs and introduce a degree of risk into
     the project.

     The Coast Guard concurred with all of the findings and has
     implemented the recommendations in the report.

     Management Comments to Recommendation 1:

     The Coast Guard concurred with our recommendation to review
     escalation and project assumptions related to land, parking, and
     fundraising for validity at each project milestone. The Coast Guard
     will work directly with the National Coast Guard Museum
     Association at each milestone to thoroughly monitor market
     influences that affect escalation rates and fundraising feasibility.
     The Coast Guard will also monitor political developments that
     might challenge assumptions in the report regarding status of land
     donation, parking, utilities, zoning, etc., and negatively affect the
     final capital cost of the projects.




    Funding Plan for the United States Coast Guard Museum 


                           Page 8 

OIG Analysis

We consider this recommendation resolved and open. This
recommendation will remain open until the Coast Guard provides us
with documentation of its first re-evaluation of project assumptions
and any related cost updates to the Funding Plan.

Management Comments to Recommendation 2:

The Coast Guard concurred with our recommendation to adjust the
Funding Plan’s capital budget escalation allowance to recognize
increases in total project cost associated with the expected two-
year project delay. The Coast Guard provided a table (See
Appendix B), which reflects the change in cost of two years of
additional escalation at 3.5% per year; including escalation in the
costs for general conditions, the general contractor’s payment and
performance bond, the general contractor’s fee, and the cascading
costs from the increased construction total.

OIG Analysis

We consider this recommendation resolved and closed.




Funding Plan for the United States Coast Guard Museum 


                       Page 9 

Appendix A
Purpose, Scope, and Methodology

                   The objective of our review was to determine whether cost
                   estimates in the Coast Guard’s Funding Plan for the Coast Guard
                   Museum to construct and operate the National Coast Guard
                   Museum are reasonable and realistic. To accomplish our
                   objective, we contracted with a professional engineering firm to
                   prepare an independent estimate of costs for the engineering,
                   design, and construction of the museum. We also engaged the
                   Smithsonian Institution, Cost Engineering Division, to review both
                   the independent cost estimate prepared by our contractor and the
                   capital costs in the Funding Plan. The Smithsonian Institution also
                   identified adjustments needed to ensure that the budgeted capital
                   costs of the project are reasonable and realistic.

                   We reviewed the Funding Plan’s capital costs and operating
                   forecast, and we analyzed a 2008 financial survey of 5,510
                   member and nonmember museums conducted by the American
                   Association of Museums. The results of this survey were
                   published in its 2009 Museum Financial Information. We also
                   analyzed the Association of Science-Technology Center’s 2008
                   annual survey of its 445 members.

                   We interviewed officials from the Coast Guard, Office of
                   Governmental and Public Affairs, the Office of Environmental
                   Law, and the Office of External Coordination, as well as staff from
                   the Smithsonian Institution, Cost Engineering Division.

                   As part of our review, we evaluated the system of internal controls
                   to the extent necessary to accomplish our objective. Specifically,
                   we contracted for an independent cost estimate to confirm that the
                   data used in the Funding Plan capital budget were valid and
                   reliable. We also verified the Funding Plan calculations and
                   confirmed that the estimates did not contain significant or material
                   mathematical errors.

                   We conducted our review between October 20, 2009, and April
                   2010 under the authority of the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based
                   on our audit objectives. We believe that the evidence obtained
                   provides a reasonable basis for our findings and conclusions based
                   upon our audit objectives.




                  Funding Plan for the United States Coast Guard Museum 


                                         Page 10 

Appendix A
Purpose, Scope, and Methodology

                   We would like to thank the Coast Guard, the Smithsonian
                   Institution, and Martinez-Couch & Associates for their cooperation
                   and courtesies extended to our staff during this review.




                  Funding Plan for the United States Coast Guard Museum 


                                         Page 11 

Appendix B
Management Comments to the Draft Report




                  Funding Plan for the United States Coast Guard Museum 


                                         Page 12 

Appendix B
Management Comments to the Draft Report




                  Funding Plan for the United States Coast Guard Museum 


                                         Page 13 

Appendix B
Management Comments to the Draft Report




                  Funding Plan for the United States Coast Guard Museum 


                                         Page 14 

Appendix C
Major Contributors to This Report

                   Brooke Bebow, Director
                   Lorinda Couch, Desk Officer
                   Dawn Pizarro, Auditor
                   Joseph Faulk, Program Analyst
                   Tessa May-Fraser, Program Analyst
                   Jim Bess, Referencer
                   The Smithsonian Institution, Cost Engineering Division
                   Martinez-Couch & Associates




                   Funding Plan for the United States Coast Guard Museum 


                                          Page 15 

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Policy
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      USCG Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      Funding Plan for the United States Coast Guard Museum 


                                             Page 16 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
